Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 3/15/2021 deponent caused to be served 1 copy(s) of the within
Brief in Opposition
upon the attorneys at the address below, and by the following method:
By Overnight Delivery
Deanna H.A. Troy-McKoy
Plaintiff-Appellant Pro Se
6505 Winfield Boulevard,
Apt B11
Margate, FL 33063
Phone: 954-661-7110

Sworn to me this
Monday, March 15, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Dervanna H. A. Troy-McKoy v. Mount Sinai
Beth Israel (3)
Docket/Case No: 20-7117
Index:

